TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2013 Statutory Audit of
                        Compliance With Legal Guidelines
                          Restricting the Use of Records
                            of Tax Enforcement Results



                                         August 15, 2013

                              Reference Number: 2013-30-073




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


FISCAL YEAR 2013 STATUTORY AUDIT                     WHAT TIGTA FOUND
OF COMPLIANCE WITH LEGAL
                                                     The IRS did not achieve full compliance with
GUIDELINES RESTRICTING THE USE                       RRA 98 Section 1204 requirements. TIGTA
OF RECORDS OF TAX ENFORCEMENT                        identified instances of noncompliance with each
RESULTS                                              subsection of the law:
                                                        Section 1204(a) – eight violations.
Highlights                                              Section 1204(b) – 15 instances of
                                                         documentation noncompliance.
Final Report issued on August 15, 2013
                                                        Section 1204(c) – one instance of
Highlights of Reference Number: 2013-30-073              noncompliance.
to the Internal Revenue Service Deputy
                                                     TIGTA also identified five IRS policy violations.
Commissioner for Operations Support.
                                                     In these five instances, managers did not reject
IMPACT ON TAXPAYERS                                  employee self-assessments containing ROTER
                                                     information.
The IRS Restructuring and Reform Act of 1998
(RRA 98) requires the IRS to ensure that             The IRS is taking a proactive approach to
managers do not evaluate enforcement                 Section 1204 training and has received approval
employees using any record of tax enforcement        to conduct the mandatory training in the form of
results (ROTER) or base employee successes           a briefing every two years. However, once the
on meeting ROTER goals and quotas. Based             mandatory biannual briefing period is over, the
on the results of our sample, TIGTA believes the     training is not scheduled to be given in the
IRS’s efforts to enforce the employee evaluation     interim to any newly hired Section 1204
requirements under RRA 98 Section 1204 are           employee or manager. To address our
generally effective and are helping to protect the   concerns regarding Section 1204 new hires, IRS
rights of taxpayers.                                 management stated that they plan to provide
                                                     training each quarter for any recently hired
WHY TIGTA DID THE AUDIT                              Section 1204 employees and managers, instead
                                                     of having them wait until the next biannual
TIGTA is required under Internal Revenue Code        briefing.
Section 7803(d)(1)(2000) to annually evaluate
whether the IRS complies with restrictions on        WHAT TIGTA RECOMMENDED
the use of enforcement statistics under RRA 98
Section 1204. Our review determined whether          TIGTA made four recommendations, including
the IRS complied with:                               that the Section 1204 noncompliance and IRS
                                                     policy violations identified in this report be
   Section 1204(a), which prohibits the IRS         discussed with the responsible managers and
    from using any ROTER to evaluate                 employees.
    employees, or to impose or suggest
    production quotas or goals.                      The IRS agreed to address noncompliance on
                                                     three of the eight Section 1204(a) violations but
   Section 1204(b), which requires that             did not agree with five of the eight
    employees be evaluated using the fair and        Section 1204(a) violations. However, IRS
    equitable treatment of taxpayers as a            documents included, for example, references to
    performance standard.                            indictments, convictions, prosecution rates, or
                                                     monies protected or recovered. Inferences
   Section 1204(c), which requires each             could be made suggesting a production goal or
    appropriate supervisor to self-certify           quota and there was “soft language or phrases”
    quarterly whether ROTERs were used in a          that were suggestive of ROTERs.
    prohibited manner.
                                                     The IRS has taken or plans to take corrective
                                                     actions on the remaining recommendations.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              August 15, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2013 Statutory Audit of Compliance
                             With Legal Guidelines Restricting the Use of Records of Tax Enforcement
                             Results (Audit # 201330005)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with restrictions on the use of enforcement statistics to evaluate employees as set
 forth in the IRS Restructuring and Reform Act of 1998 (RRA 98) Section 1204.1 The Treasury
 Inspector General for Tax Administration is required under Internal Revenue Code
 Section 7803(d)(1)(2000) to annually evaluate the IRS’s compliance with the provisions of
 RRA 98 Section 1204. The RRA 98 requires the IRS to ensure that managers do not evaluate
 enforcement employees2 using any record of tax enforcement results (ROTER) or base employee
 successes on meeting goals and quotas for ROTERs. This review is part of our Fiscal Year 2013
 Annual Audit Plan and addresses the major management challenge of Taxpayer Protection and
 Rights.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 If you have any questions, please contact me or Augusta R. Cook, Acting Assistant Inspector
 General for Audit (Compliance and Enforcement Operations).


 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
 in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
 provides direction/guidance for RRA 98 Section 1204 program activities.
                                           Fiscal Year 2013 Statutory Audit of
                                      Compliance With Legal Guidelines Restricting
                                     the Use of Records of Tax Enforcement Results




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Is Not in Full Compliance
          With Section 1204 of the Restructuring and Reform Act
          of 1998 .......................................................................................................... Page 4
                     Recommendation 1:........................................................ Page 8

                     Recommendations 2 and 3: .............................................. Page 9

          Due to Scheduling Intervals, Section 1204 Training May
          Not Be Given Timely to New Section 1204 Employees
          and Managers ................................................................................................ Page 10
                     Recommendation 4:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Prior Audit Reports .............................................................. Page 17
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
               Fiscal Year 2013 Statutory Audit of
          Compliance With Legal Guidelines Restricting
         the Use of Records of Tax Enforcement Results




                 Abbreviations

IRS        Internal Revenue Service
ROTER      Record of Tax Enforcement Result
RRA 98     Restructuring and Reform Act of 1998
                                   Fiscal Year 2013 Statutory Audit of
                              Compliance With Legal Guidelines Restricting
                             the Use of Records of Tax Enforcement Results




                                          Background

On July 22, 1998, the President of the United States signed the Internal Revenue Service (IRS)
Restructuring and Reform Act of 1998 (RRA 98) into law.1 RRA 98 Section 1204 restricts the
use of enforcement statistics. Specifically, RRA 98 Section 1204(a) prohibits the IRS from using
any record of tax enforcement results (ROTER) to evaluate employees or to impose or suggest
quotas or goals for such employees.
The IRS defines ROTERs as data, statistics, compilations
of information, or other numerical or quantitative                RRA 98 Section 1204(a)
recordings of the tax enforcement results reached in one or     prohibits the IRS from using
more cases. Examples of ROTERs include the amount of          ROTERs to evaluate employees
                                                              or to impose or suggest quotas
dollars collected or assessed, the number of fraud referrals   or goals for such employees.
made, and the number of seizures conducted. A ROTER
does not include evaluating an individual case to determine
if an employee exercised appropriate judgment in pursuing enforcement of the tax laws.
RRA 98 Section 1204(b) requires employees to be evaluated using the fair and equitable
treatment of taxpayers as a performance standard. The IRS refers to this standard as the
retention standard. The retention standard requires employees to administer the tax laws fairly
and equitably; protect all taxpayers’ rights; and treat each taxpayer ethically with honesty,
integrity, and respect. This provision of the law was enacted to provide assurance that employee
performance is focused on providing quality service to taxpayers instead of achieving
enforcement results.
RRA 98 Section 1204(c) requires each appropriate supervisor to perform a quarterly
self-certification. In the self-certification, the appropriate supervisor attests to whether ROTERs
were used in a prohibited manner. The IRS defines an appropriate supervisor as the highest
ranking executive in a distinct organizational unit who supervises directly or indirectly one or
more Section 1204 enforcement employees.2 Current IRS procedures require each level of
management, beginning with first-line managers of Section 1204(a) employees, to self-certify as
to whether or not they used ROTERs in a manner prohibited by RRA 98 Section 1204(a). The
appropriate supervisor then prepares a consolidated office certification covering the entire
organizational unit.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
provides direction/guidance for RRA 98 Section 1204 program activities.
                                                                                                     Page 1
                                   Fiscal Year 2013 Statutory Audit of
                              Compliance With Legal Guidelines Restricting
                             the Use of Records of Tax Enforcement Results



The IRS functional offices and divisions, including the Office of Appeals; Criminal
Investigation; the Large Business and International Division; the Small Business/Self-Employed
Division; the Office of the National Taxpayer Advocate; the Tax Exempt and Government
Entities Division; and the Wage and Investment Division are responsible for RRA 98
Section 1204 program implementation within their respective areas. Section 1204 program
managers and coordinators in each business organization are available to provide guidance to
managers regarding Section 1204 issues, including the certification process.
Figure 1 depicts the number of Section 1204 and Non-Section 1204 managers in the subject
business organizations as of September 30, 2012. Section 1204 managers either supervised a
Section 1204 employee or provided guidance or direction for Section 1204 activities.
         Figure 1: Number of Section 1204 and Non-Section 1204 Managers
                by Business Organization (as of September 30, 2012)




Source: Treasury Inspector General for Tax Administration audit analysis of data from the IRS’s Corporate
Planning and Internal Control database.

Internal Revenue Code Section 7803(d)(1)(2000) requires the Treasury Inspector General for
Tax Administration to determine annually whether the IRS is in compliance with restrictions on
the use of enforcement statistics under RRA 98 Section 1204. We have previously performed
14 annual reviews to meet this requirement. Appendix IV lists the prior audit reports.
This review was performed at the IRS Headquarters in Washington, D.C.; in the Office of the
Chief Financial Officer; the Office of the Chief, Appeals; the Office of the Chief, Criminal
Investigation; the Office of the National Taxpayer Advocate; the Large Business and
International Division; the Small Business/Self-Employed Division; the Tax Exempt and
Government Entities Division; and the Wage and Investment Division during the period
October 2012 through March 2013.

                                                                                                       Page 2
                                Fiscal Year 2013 Statutory Audit of
                           Compliance With Legal Guidelines Restricting
                          the Use of Records of Tax Enforcement Results



On-site reviews were performed at the IRS field offices in Los Angeles, California;
Miami, Florida; Nashville, Tennessee; Ogden, Utah; and Washington, D.C. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                                        Fiscal Year 2013 Statutory Audit of
                                   Compliance With Legal Guidelines Restricting
                                  the Use of Records of Tax Enforcement Results




                                         Results of Review

The Internal Revenue Service Is Not in Full Compliance With
Section 1204 of the Restructuring and Reform Act of 1998
The IRS’s efforts to ensure that managers are not using ROTERs and/or production goals or
quotas to evaluate employees are generally effective. However, some IRS business units need to
be more diligent. In Fiscal Year 2012, the IRS was not in full compliance with RRA 98
Section 1204. The following issues were identified:
          Section 1204(a) – 8 violations where IRS managers used ROTERs to evaluate
           employees.
          Section 1204(b) – 15 instances of documentation noncompliance where IRS managers
           did not maintain proper retention standard documentation to evaluate their employees
           using the fair and equitable treatment of taxpayers as a performance standard.
          Section 1204(c) – 1 instance of noncompliance where an IRS manager did not certify in
           writing to the IRS Commissioner whether ROTERs and/or production quotas or goals
           were used in a prohibited manner.
To evaluate the IRS’s compliance with the Section 1204 provisions, we selected a judgmental
sample3 of 35 first-line managers and 105 employees in five sites. The sites selected had at least
four business organizations with Section 1204 first-line managers. We selected seven managers
and three of the manager’s employees at each site and reviewed their performance evaluation
documents. In addition, we reviewed performance documents for five second-line managers,
one from each site. As a result, 145 employees were selected to determine the IRS’s compliance
with RRA 98 Section 1204 provisions.

The IRS was not in full compliance with the use of ROTER procedures
In Fiscal Year 2012, the IRS did not achieve full compliance with RRA 98 Section 1204(a).
We found eight violations in employee or manager performance-related documents and group
meeting minutes reviewed from Criminal Investigation and the Taxpayer Advocate Service.
Specifically, the ROTERs were found in:
          Five of 145 annual appraisals reviewed.



3
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 4
                                    Fiscal Year 2013 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



       Two of 135 midyear appraisals reviewed.4
       One of the 356 group meeting minutes reviewed.
To evaluate the IRS’s compliance with Section 1204(a), we evaluated Fiscal Year 2012
performance-related documents, including midyear and annual performance reviews, employee
self-assessments, workload reviews, and award documentation for the 145 employees, as well as
any group meeting minutes5 to determine whether ROTERs were used when evaluating the
employees’ performance and/or to impose or suggest quotas or goals for such employees.
RRA 98 Section 1204(a) prohibits the IRS from using ROTERs to evaluate employees, or to
impose or suggest quotas or goals for such employees.
Based on the results of our review, the IRS’s efforts to ensure that managers are not using
ROTERs and/or production quotas or goals to evaluate employees are generally effective.
However, to ensure the fair and equitable treatment of taxpayers, some IRS business units need
to be more diligent to ensure that ROTERs are not used to evaluate employees and/or suggest
production quotas or goals. After discussions with management from both business units, they
agreed that additional training and a reminder of the guidelines are needed.
In addition, we also identified five of 90 self-assessments prepared by IRS employees6 from the
Criminal Investigation and the Taxpayer Advocate Service that contained ROTERs. We did not
consider these to be an actual violation because ROTERs in an employee’s self-assessment do
not violate Section 1204(a). However, according to the Internal Revenue Manual,7 it is the IRS’s
policy that bargaining unit and non-bargaining unit employees should not use ROTERs in their
self-assessments. If a self-assessment is submitted with a ROTER, the manager is to return it to
the employee for removal of the ROTER. In these five cases, the managers did not follow
proper procedures and, as a result, the employees may have remained unaware of the issue.

Documentation that IRS managers are meeting the requirements of the retention
standard needs improvement
The IRS did not achieve full compliance with the retention standard as related to RRA 98
Section 1204(b) in Fiscal Year 2012. Specifically, we determined that:
       Seven employee personnel files were missing Form 6774, Receipt of Critical Job
        Elements and Fair and Equitable Treatment of Taxpayers Retention Standard.



4
  For 10 of the 145 requested midyear appraisals, the responsible managers did not conduct midyear evaluations of
these employees, which resulted in no midyear appraisal for us to review.
5
  Of the 35 first-line managers sampled, two managers did not maintain any group meeting minutes. Of the
33 remaining managers, the number of group meeting minutes per manager varied from two to 44.
6
  Bargaining unit employees are not required to complete self-assessments.
7
  Internal Revenue Manual 1.5.2.6.2(3) (May 10, 2012).
                                                                                                           Page 5
                                  Fiscal Year 2013 Statutory Audit of
                             Compliance With Legal Guidelines Restricting
                            the Use of Records of Tax Enforcement Results



       Six Employee Personnel Files included Form 6774. However, the form was not
        appropriately signed by all parties. Figure 2 presents an example of Form 6774, Parts III
        and IV.
       Two manager personnel files included Form 12450-A, Manager Performance
        Agreement, or Form 12450-B, Management Official Performance Agreement; however,
        the forms were not appropriately signed by all parties.
                             Figure 2: Form 6774, Parts III and IV

                                                                          Part III is where
                                                                          the employees
                                                                          acknowledge that
                                                                          the retention
                                                                          standard has
                                                                          been discussed
                                                                          with them and the
                                                                          manager certifies
                                                                          that they will not
                                                                          use ROTERs to
                                                                          evaluate the
                                                                          employee.
                                                                          Part IV can be
                                                                          used to recertify
                                                                          the form during
                                                                          the following two
                                                                          rating periods.
Source: Form 6774 (Rev. 12-2008).

To evaluate the IRS’s compliance with Sections 1204(b), we requested the Fiscal Year 2012
appropriate retention standard document applicable for the 145 selected employees. RRA 98
Section 1204(b) requires employees to be evaluated using the fair and equitable treatment of
taxpayers as a performance standard. The standard applies to all executives, managers, and
employees. On June 16, 1999, the IRS established a retention standard method to ensure that
employee performance is focused on providing quality service to taxpayers instead of on
achieving enforcement results.
Compliance with Section 1204(b) is twofold, the receipt and acknowledgment of the retention
standard and the annual performance rating related to the retention standard. At the beginning
of each performance period, managers must provide the appropriate receipt of retention standard




                                                                                           Page 6
                                    Fiscal Year 2013 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



form to their employees.8 The manager must sign and date the appropriate form indicating the
sharing of the retention standard with his or her employee and, in turn, the employee must
acknowledge receipt of the retention standard by signing and dating the form. At the end of the
performance period, the employee must be evaluated on the retention standard using the
appropriate appraisal form.9 The Internal Revenue Manual10 states that Section 1204(b)
noncompliance occurs when:
       Documentation (either acknowledgment or rating) is not contained in the Employee
        Personnel File and/or does not exist for the fiscal year of audit.
       Documentation does not contain all signatures and dates (employee, manager, and
        next-level manager).
       The retention standard rating is unchecked in the annual performance document.
When we discussed the issues of potential Section 1204(b) noncompliance with IRS
management, they stated it appears that the managers need to be reminded of the documentation
procedures related to the retention standard. Discussion and acknowledgement of the retention
standard and subsequent performance evaluations are used to ensure that all Section 1204
employees meet the provisions of the retention standard and provide fair and equitable treatment
to taxpayers. If managers are not adequately documenting these discussions with their
employees, it is difficult to determine if employees were aware of and/or actually provided
information on the retention standard. If managers fail to properly share the retention standard
information with their employees, it can affect employees’ interactions with taxpayers and their
understanding of the importance of safeguarding taxpayer rights.

First-line managers properly completed their quarterly self-certifications
With the exception of one quarterly self-certification, the IRS adequately complied with RRA 98
Section 1204(c). To evaluate the IRS’s compliance with Section 1204(c), we requested the
Fiscal Year 2012 second and fourth quarter self-certifications for 35 first-line managers.11
|RRA 98 Section 1204(c) requires appropriate supervisors to certify quarterly, in writing, to the
IRS Commissioner whether ROTERs and/or production quotas or goals were used in a
prohibited manner. Therefore, managers who evaluate Section 1204 employees are required to
certify each quarter in writing that they did not:

8
  The appropriate documents for the receipt of the retention standard are Form 6774, Form 12450-A, Form 12450-B,
Form 12450-D, Management/Program Analyst Performance Agreement, or Form TD F 35-07, Executive
Performance Agreement.
9
  The appropriate appraisal forms are Form 6850-BU, Bargaining Unit Performance Appraisal and Recognition
Request, Form 6850-NBU, Non-Bargaining Unit Performance Appraisal, Form 12450-A, Form 12450-B,
Form 12450-D, or Form TDF 35-07.
10
   Internal Revenue Manual 1.5.3.6.4(1) (June 6, 2012).
11
   The appropriate quarterly self-certification forms are Form 1204-M, Manager’s Quarterly Self-Certification – No
Violations, or Form 1204-MV, Manager’s Quarterly Self-Certification – With Violations.
                                                                                                          Page 7
                                       Fiscal Year 2013 Statutory Audit of
                                  Compliance With Legal Guidelines Restricting
                                 the Use of Records of Tax Enforcement Results



          Use ROTERs to evaluate employees and/or to impose or suggest production quotas or
           goals for employees in any performance evaluations, including appraisals, awards, or
           promotion justifications, written or reviewed by the manager.
          Verbally communicate to employees that ROTERs affected their evaluations.
          Verbally or in writing use ROTERs to impose or suggest production quotas or goals for
           employees or for work unit activities (e.g., through program guidance or business and
           program reviews).
Per the Internal Revenue Manual,12 the business organization and function Section 1204 program
managers and their respective Section 1204 coordinators should monitor the quarterly
certification process throughout their organizations/functions.
After discussions with IRS management, we determined that there was an acting manager during
the second quarter of Fiscal Year 2012 who was unaware of the self-certification requirements.
Per the Internal Revenue Manual,13 an acting manager (in the position more than 30 days at the
end of a quarter) will self-certify for the office and must be included on the list of Section 1204
managers.
Through the quarterly certification process, managers are reminded of their responsibilities under
RRA 98 Section 1204 to not evaluate their employees on the basis of ROTERs and/or production
quotas or goals. The quarterly certification process helps to ensure that managers are aware of
the IRS’s commitment to administer the tax laws fairly and to protect the rights of taxpayers. If
managers are not complying with the self-certification requirement, it could indicate that they are
not complying with the underlying requirements of the law.

Recommendations
Recommendation 1: The Chief, Criminal Investigation, and the National Taxpayer Advocate
should ensure that the Section 1204(a) violations identified in this report are discussed with the
responsible managers to ensure that the managers understand the guidelines related to the use of
ROTERs.
           Management’s Response: IRS management partially agreed with this
           recommendation. They agreed with three of the eight Section 1204(a) violations
           identified in this report. These three were discussed with the responsible managers to
           ensure that they understand the guidelines related to the use of ROTERs.
           Office of Audit Comment: IRS management disagreed with five of the eight
           Section 1204(a) violations identified in this report. The five Section 1204(a) violations in
           which the IRS did not agree consist of one employee midyear progress review, three
12
     Internal Revenue Manual 1.5.3.7(10) (June 6, 2012).
13
     Internal Revenue Manual 1.5.3.7.2(3) (June 6, 2012).
                                                                                                Page 8
                                Fiscal Year 2013 Statutory Audit of
                           Compliance With Legal Guidelines Restricting
                          the Use of Records of Tax Enforcement Results



       employee evaluations, and a verbal recognition made at a group meeting. The IRS stated
       that (1) the midyear progress review does not include data, statistics, or numerical
       information regarding tax enforcement results, (2) the three evaluations referenced did
       not involve tax investigations, and (3) the fifth did not include a tax enforcement result.
       We disagree with the IRS. The documents included, for example, references to
       indictments, convictions, prosecution rates, or monies protected or recovered. Inferences
       could be made suggesting a production goal or quota and there was “soft language or
       phrases” that were suggestive of ROTERs. Section 1204(a) states that the IRS shall not
       use records of tax enforcement results to impose or suggest production quotas or goals
       with respect to such employees. The Internal Revenue Manual also states that in addition
       to the prohibition against using hard numbers on a collective basis, managers are
       prohibited from using “soft language or phrases” that are suggestive of ROTERs.
Recommendation 2: The Chief, Appeals; the Commissioners for the Large Business and
International, Tax Exempt and Government Entities, and Wage and Investment Divisions; and
the National Taxpayer Advocate should ensure that the Section 1204(b) noncompliance with
documentation requirements and the Section 1204(c) noncompliance identified in this report are
discussed with the responsible managers to ensure that they understand the retention standard
documentation and quarterly self-certification requirements.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief Financial Officer confirmed with the affected business units that the
       Section 1204(b) noncompliance with documentation requirements and the
       Section 1204(c) noncompliance identified in this report were discussed with the
       responsible managers to ensure that they understand the retention standard documentation
       and quarterly self-certification requirements.
Recommendation 3: The Chief, Criminal Investigation, and the National Taxpayer Advocate
should ensure that the IRS noncompliance identified in this report relating to the prohibition on
including ROTERs in employee self-assessments is discussed with the responsible managers and
employees so that they understand the IRS’s policy that bargaining unit and non-bargaining unit
employees should not use ROTERs in their self-assessments.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief Financial Officer has confirmed that the policy violations resulting from employees
       including ROTERs in their self-assessments have been discussed with the appropriate
       managers and their employees.




                                                                                           Page 9
                                    Fiscal Year 2013 Statutory Audit of
                               Compliance With Legal Guidelines Restricting
                              the Use of Records of Tax Enforcement Results



Due to Scheduling Intervals, Section 1204 Training May Not Be Given
Timely to New Section 1204 Employees and Managers
We interviewed a judgmental sample of 20 Section 1204 employees to determine if they had:
(1) a clear understanding of what a ROTER is; (2) any knowledge of the retention standard; and
(3) any training related to either topic. We determined that:
        10 employees stated they did not have a clear understanding of ROTERs.
        Seven employees were not sure if they had received training related to ROTERs.
        Five were not sure if they had received training related to the retention standard.
        Four employees did not have a clear understanding of the term retention standard.
The IRS conducted mandatory RRA Section 1204 training, which was staggered to
accommodate the operating and functional divisions’ workloads from March 1 through
September 30, 2011. The training was required to ensure that Section 1204 employees and
managers understand:
        The rules for appropriately using statistics in setting goals and measuring performance.
        The requirements for sharing and evaluating the Fair and Equitable Treatment of
         Taxpayers Retention Standard.
        The process for quarterly self-certification of compliance with Section 1204
         requirements.
        That annual program reviews are conducted by the Office of the Chief Financial Officer
         and the Treasury Inspector General for Tax Administration to assess Section 1204
         compliance.
This self-study training course was taken individually by employees and managers through the
Enterprise Learning Management System14 and took approximately 30 minutes to complete.
According to IRS management, the training was to be conducted every three years and who took
the training was manually controlled by the Office of the Chief Financial Officer. IRS
management also stated that the lack of employee understanding could be due to the large
number of reorganizations among business units in the last couple of years and that they may
have missed some employees by using a manual process to control who took the training.
The Office of the Chief Financial Officer is taking a proactive approach to the Section 1204
training and has received approval to conduct the mandatory training in the form of a briefing
every two years. The training will no longer be manually controlled by the Office, but will

14
  The Enterprise Learning Management System is an application that provides training, administration, and training
resource management.
                                                                                                         Page 10
                                Fiscal Year 2013 Statutory Audit of
                           Compliance With Legal Guidelines Restricting
                          the Use of Records of Tax Enforcement Results



automatically be administered to all Section 1204 employees and managers at the time the
briefing is given. The first briefing is scheduled to be delivered on or about July 1, 2013. IRS
management stated that the mandatory briefing will give them more control to ensure that all
Section 1204 employees at the time of the briefing receive it.
However, once the mandatory biannual briefing period is over, this training is not scheduled to
be given in the interim to any newly hired Section 1204 employee or manager. As a result, there
is a possibility that not all Section 1204 employees and managers will receive the training in a
timely manner or at all. The IRS has a responsibility to ensure that its managers and employees
are timely trained on Section 1204. When we discussed our concern regarding the Section 1204
new hires with IRS management, an official from the Office of the Chief Financial Officer stated
that the Section 1204 training will be provided each quarter for any recently hired Section 1204
employees and managers, instead of having them wait until the next scheduled biannual
briefing. We have reviewed this training and believe it will be valuable for all
Section 1204 employees and managers at the time of the training; however, the IRS needs to
ensure that all new Section 1204 employees and managers will timely receive the training as
planned.

Recommendation
Recommendation 4: The Deputy Commissioner for Operations Support should ensure that
Section 1204 training is timely disseminated to all new Section 1204 employees and managers
hired between the scheduled mandatory biannual briefings.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief Financial Officer will update the Section 1204 training guidance to require training
       be provided each quarter for any Section 1204 employees and managers hired between
       the scheduled mandatory biannual briefings. The business units will be required to
       provide the Chief Financial Officer quarterly updates of the Section 1204 training
       completed by new hires.




                                                                                           Page 11
                                     Fiscal Year 2013 Statutory Audit of
                                Compliance With Legal Guidelines Restricting
                               the Use of Records of Tax Enforcement Results



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with restrictions
on the use of enforcement statistics to evaluate employees as set forth in RRA 98 Section 1204.1
To accomplish the objective, we:
I.       Determined if the IRS complied with the provisions of RRA 98 Section 1204(a) and (b)
         when evaluating Section 1204 employees’ performance.
         A. Selected a judgmental sample2 of 145 enforcement employees/managers for review.
             1. Selected Los Angeles, California; Miami, Florida; Nashville, Tennessee;
                Ogden, Utah; and Washington, D.C., as the audit sites and obtained a list of
                Section 1204 managers by operating division/function from the national
                Section 1204 program coordinator. We determined the distribution of the
                employees who were sampled in accordance with the sampling plan. The site
                visits were completed during the months of January through March 2013.
             2. Identified a list of potential first-line managers for each operating
                division/function that was reviewed using the Section 1204 manager list and the
                Discovery Directory.
             3. Selected the first-line managers using the manager list prepared in Step I.A.2,
                according to the sampling plan. We judgmentally selected three employees from
                each manager and reviewed their performance evaluation documents.
         B. Obtained and reviewed the performance evaluation documents (i.e., midyear and
            annual performance reviews and award documents) for each selected employee and
            first-line manager. Also, we reviewed workload reviews for the selected employees.
             1. Contacted the selected first-line managers, judgmentally selected three
                employees, and reviewed their performance evaluation documents. When a
                selected manager was unavailable during the scheduled visit, we made a
                substitution.
             2. Obtained and reviewed the employee performance evaluation documentation and
                workload reviews and determined whether ROTERs, production goals, or quotas
                were inappropriately used in the evaluation process and whether employees were

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                             Page 12
                               Fiscal Year 2013 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



              evaluated appropriately on the fair and equitable treatment of taxpayers. We
              verified Form 6774, Receipt of Critical Job Elements and Fair and Equitable
              Treatment of Taxpayers Retention Standard, was signed and in the Employee
              Personnel File for the rating period under review.
       C. Interviewed the employee’s manager and determined the potential cause when a
          potential exception case was identified, while performing the file reviews covered in
          Step I.B.2.
       D. Discussed the identified exceptions with the national Section 1204 program
          coordinator and the appropriate operating division/function coordinator for agreement
          and explored the potential root cause for the violations.
       E. Selected a judgmental sample of five second-line managers. We reviewed their
          performance evaluation documentation (i.e., midyear and annual performance
          reviews and award documents) for the inappropriate use of ROTERs. We focused on
          second-level managers of the first-line managers selected in Step I.A.
II.    Determined if the sampled first-line managers complied with RRA 98 Section 1204(c) by
       certifying by letter whether ROTERs were used in a manner prohibited by subsection (a).
       A. Obtained the Fiscal Year 2012 second and fourth quarter self-certification documents
          from the selected first-line managers at each audit site.
          1. Reviewed the self-certification documents submitted by the first-line managers
             and established whether they were completed timely and signed appropriately.
          2. Determined if any ROTERs and/or production goals and quotas were reported by
             the first-line managers on their self-certifications.
       B. Contacted the second-line manager for any first-line manager certifications that could
          not be located.
          1. From the second-line manager, attempted to obtain evidence that the certification
             was filed (i.e., a copy of the certification).
          2. If the first-line manager’s certification could not be located, discussed the reason
             it could not be located with the first and second-line manager.
       C. Discussed any self-certification exception cases with the national Section 1204
          program coordinator and the appropriate Section 1204 program coordinator (for each
          operating division/function), obtained agreement, and further explored the potential
          cause for the violation.
III.   Determined the effectiveness of the mandatory RRA 98 Section 1204 training for
       managers and employees.


                                                                                          Page 13
                                Fiscal Year 2013 Statutory Audit of
                           Compliance With Legal Guidelines Restricting
                          the Use of Records of Tax Enforcement Results



       A. Reviewed documentation and determined how and when the Section 1204 training
          was implemented.
       B. Reviewed all Section 1204 training materials for effectiveness of message.
       C. Interviewed a judgmental sample of 20 employees and obtained their feedback on
          whether perceptions about the use of (or emphasis on) enforcement statistics or
          ROTERs have changed.
Data validation methodology
We obtained the Fiscal Year 2012 Fourth Quarter Corporate Planning and Internal Control
database lists of Section 1204 managers from the IRS’s Office of the Chief Financial Officer.
We used these lists to develop our judgmental sampling plan. To determine the reliability of the
data, we reviewed the data for duplicates and missing information. We then compared the data
to the Enterprise Directory Services, which serves as the principal integrator of Identity
Management information for the IRS. The Discovery Directory contains information about
managers, employees, and locations. We used this information to verify the accuracy of the data
provided by the IRS by matching the information to the Fiscal Year 2012 Fourth Quarter list.
These tests determined that the data were sufficiently reliable and could be used to meet the
objective of this audit.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the guidelines and rules related to using
ROTERs in a way as to improperly influence the handling of taxpayer cases and retention
standard guidance. We evaluated these controls and reviewed judgmental samples of
performance appraisals and signed self-certifications to determine whether the IRS complied
with restrictions on the use of enforcement statistics when evaluating its employees.




                                                                                           Page 14
                              Fiscal Year 2013 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Christina Dreyer, Audit Manager
Michele Jahn, Lead Auditor
Carol Gerkens, Senior Auditor
Kevin Nielsen, Auditor




                                                                                    Page 15
                              Fiscal Year 2013 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                            Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:SF:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Appeals AP:TP:SS
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO
       National Taxpayer Advocate TA




                                                                                    Page 16
                                Fiscal Year 2013 Statutory Audit of
                           Compliance With Legal Guidelines Restricting
                          the Use of Records of Tax Enforcement Results



                                                                                   Appendix IV

                               Prior Audit Reports

The Treasury Inspector General for Tax Administration has previously performed 14 audits in
this subject area. The audit reports are:
   TIGTA, Ref. No. 2012-30-090, Fiscal Year 2012 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (Aug. 2012).
   TIGTA, Ref. No. 2011-30-069, Fiscal Year 2011 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (July 2011).
   TIGTA, Ref. No. 2010-30-076, Fiscal Year 2010 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (July 2010).
   TIGTA, Ref. No. 2009-30-091, Fiscal Year 2009 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (June 2009).
   TIGTA, Ref. No. 2008-40-108, Fiscal Year 2008 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (April 2008).
   TIGTA, Ref. No. 2007-40-055, Fiscal Year 2007 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (March 2007).
   TIGTA, Ref. No. 2006-40-095, Fiscal Year 2006 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (June 2006).
   TIGTA, Ref. No. 2005-40-157, Fiscal Year 2005 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (Sept. 2005).
   TIGTA, Ref. No. 2004-40-066, Fiscal Year 2004 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (March 2004).
   TIGTA, Ref. No. 2003-40-090, Fiscal Year 2003 Statutory Audit of Compliance With Legal
   Guidelines Restricting the Use of Records of Tax Enforcement Results (March 2003).
   TIGTA, Ref. No. 2002-40-163, Compliance With Regulations Restricting the Use of Records of Tax
   Enforcement Results Shows Improvement (Sept. 2002).
   TIGTA, Ref. No. 2001-10-178, Compliance With the Internal Revenue Service Restructuring and
   Reform Act of 1998 Section 1204 Has Not Yet Been Achieved (Sept. 2001).
   TIGTA, Ref. No. 2000-10-118, Further Improvements Are Needed in Processes That Control and
   Report Misuse of Enforcement Statistics (Sept. 2000).
   TIGTA, Ref. No. 1999-10-073, The Internal Revenue Service Should Continue Its Efforts to Achieve
   Full Compliance with Restrictions on the Use of Enforcement Statistics (Sept. 1999).


                                                                                            Page 17
               Fiscal Year 2013 Statutory Audit of
          Compliance With Legal Guidelines Restricting
         the Use of Records of Tax Enforcement Results



                                                  Appendix V

Management’s Response to the Draft Report




                                                         Page 18
      Fiscal Year 2013 Statutory Audit of
 Compliance With Legal Guidelines Restricting
the Use of Records of Tax Enforcement Results




                                                Page 19
      Fiscal Year 2013 Statutory Audit of
 Compliance With Legal Guidelines Restricting
the Use of Records of Tax Enforcement Results




                                                Page 20
      Fiscal Year 2013 Statutory Audit of
 Compliance With Legal Guidelines Restricting
the Use of Records of Tax Enforcement Results




                                                Page 21
